Audit of USAID/Egypt’s Management
of U.S. Personal Services Contractors

Audit Report Number 6-263-04-005-P

May 19, 2004




                  Cairo, Egypt
May 19, 2004


MEMORANDUM
FOR:           Director, USAID/Egypt, Kenneth C. Ellis

FROM:          Regional Inspector General/Cairo, David H. Pritchard /s/

SUBJECT:       Audit of USAID/Egypt’s Management of U.S. Personal Services
               Contractors (Report No. 6-263-04-005-P)

This memorandum transmits our final audit report on the subject audit. In finalizing the
report, we considered your comments on our draft report and have included them as
Appendix II.

This report includes six recommendations to strengthen USAID/Egypt’s management of
U.S. personal services contracts. In your written comments, you concurred with these
recommendations and identified actions taken to address our concerns. Therefore, we
consider that final action has been taken on all recommendations.

I appreciate the cooperation and courtesy extended to my staff during the audit.




                                                                                      1
(This page left intentionally blank)




                                       2
Table of   Summary of Results                                                     4
Contents
           Background                                                             5

           Audit Objectives                                                       6

           Audit Findings                                                         6

                  Did USAID/Egypt determine its requirements for U.S. personal
                  services contractors in accordance with USAID policies and
                  procedures?                                                     6

                         USAID/Egypt Needed To Consider Hiring Locally            8

                  Did USAID/Egypt award U.S. personal services contracts in
                  accordance with selected USAID policies and procedures?         9


                         Administrative Controls Needed Improvement              10

                         Procedures for Administering Contract
                         Extensions Needed Improvement                           13

                         Support for Justifications Needed Improvement           14

           Management Comments and Our Evaluation                                16

           Appendix I-Scope and Methodology                                      17

           Appendix II-Management Comments                                       19




                                                                                      3
Summary of   Regional Inspector General/Cairo audited USAID/Egypt’s management of U.S.
Results      personal services contractors to assess whether USAID/Egypt (1) determined its
             requirements for these contractors in accordance with USAID policies and
             procedures, and (2) awarded the contracts in accordance with selected USAID
             policies and procedures. (See page 6)

             USAID/Egypt determined its requirements in accordance with USAID policies
             and procedures, except that USAID/Egypt did not consider cost effective local
             hire opportunities before soliciting for off-shore 1 contractors. We recommended
             that USAID/Egypt establish Mission guidelines to consider locally-recruited U.S.
             and Foreign National personal services contractors as an economical option for
             meeting staffing requirements. (See pages 8-9)

             In most cases, USAID/Egypt awarded U.S. personal services contracts in
             accordance with selected USAID policies and procedures.                However,
             inconsistencies within contracts and lack of supporting award documentation
             indicated that administrative controls needed improvement.          In addition,
             procedures for administering contract extensions were not always supportive of
             Other- Than-Full-and-Open-Competition requirements. Lastly, USAID/Egypt
             needed to better document justifications when a contract award deviated from the
             regulations. (See pages 9-12)

             We recommended that the Mission Director:

                 •   Establish controls to complete and review the negotiation memorandum
                     for execution of personal services contract awards. (See page 12)
                 •   Institute the use of a check-off list, similar to that included in USAID’s
                     Management Services Review Guidelines 2 for U.S. personal services
                     contracts, to use as a tool to ensure that contract files are complete and
                     accurate. (See page 13)
                 •   Establish a standardized format to use when developing budgets for both
                     local and internationally recruited personal services contracts. (See page
                     13)
                 •   Require offices to comply with justification requirements prior to
                     extending U.S. off-shore personal services contracts beyond five years
                     from the basic effective contract date. (See page 13)



             1
              U.S. citizens or U.S. resident aliens recruited from the United States.
             2
               USAID’s Bureau for Management issued The Management Services Review Guidelines to
             provide a basic reference point for the evaluation of all segments of administrative management
             services at missions. The Bureau designed the document for broad management assessment of the
             entire mission spectrum of Executive Office Support Services.


                                                                                                          4
                 •   Determine how two contracts will be managed once the current extensions
                     are completed to ensure that compensation and benefits are paid in
                     accordance with USAID Acquisition Regulation. (See page 15)

             In responding to this report, USAID/Egypt agreed with the six recommendations
             and took corrective actions. Appendix II contains USAID/Egypt’s comments in
             their entirety. (See page 19)


Background   The Federal Acquisition Regulation, Part 37, Service Contracting, prescribes policy
             and procedures that are specific to the acquisition and management of services by
             contract. A personal services contract creates an employer-employee relationship
             between the Government and the contractor. The Regulation says that agencies
             shall not award personal services contracts unless specifically authorized by
             statute to do so.

             Section 636(a)(3) of the Foreign Assistance Act (22 U.S.C. 2396(a)(3)) authorizes
             USAID to enter into personal services contracts for personal services abroad and
             provides further that such individuals shall not be regarded as employees of the
             U.S. Government for the purpose of any law administered by the Civil Service
             Commission.

             Three following circumstances drive the need to request authorization for a U.S.
             personal services contractor

                 •   When USAID no longer employs the skills needed in critical functions.
                 •   When the activity would not lend to hiring a U.S. direct- hire because the
                     activity is of limited duration.
                 •   When the position requires specialized skills that are not available within
                     the American direct-hire workforce.

             From October 2002 through November 2003, USAID/Egypt’s workforce included
             20 authorized U.S. personal services contractor positions. 3 Of the 20 positions, the
             Mission allocated 11 to its 3 program offices and the remaining 9 to the following
             offices: management (4), financial management (1), legal (1), procurement (1), and
             program planning (2). USAID/Egypt’s offices of procurement and management
             were responsible for the award and administration of the U.S. personal services
             contracts.




             3
               USAID/Egypt awarded 21 contracts in this same period with 2 contracts awarded to the same
             contractor for the same services.


                                                                                                      5
Audit            This audit represented one in a series of worldwide audits included in the Office
Objectives       of Inspector General’s multi- year strategy for auditing USAID’s human capital
                 activities. Regional Inspector General/Cairo performed the audit to answer the
                 following questions:

                 •      Did USAID/Egypt determine its requirements for U.S. personal services
                        contractors in accordance with USAID policies and procedures?

                 •      Did USAID/Egypt award U.S. personal services contracts in accordance
                        with selected USAID policies and procedures?

                 Appendix I contains a discussion of the audit's scope and methodology.


Audit Findings   Did USAID/Egypt determine its requirements for U.S. personal services
                 contractors in accordance with USAID policies and procedures?

                 USAID/Egypt determined its requirements for U.S. personal services contractors
                 in accordance with USAID policies and procedures, except that USAID/Egypt did
                 not consider cost effective local hire opportunities before soliciting for off-shore
                 contractors.

                 A USAID General Notice entitled “Appropriate Use and Funding of USAID’s
                 Non-Direct Hire Workforce”4 provides USAID managers information and
                 guidance on the appropriate roles, responsibilities, and employment mechanisms
                 for the various types of personnel working with USAID. For example, the Notice
                 says that:

                        •   Direct-hire U.S. citizens shall perform the basic work of USAID.
                        •   The first option for filling a position that must be filled by a U.S.
                            citizen is the assignment of a direct-hire employee.
                        •   A U.S. personal services contractor should only be considered when
                            staffing requirements are clearly temporary, when the local
                            recruitment of U.S. citizens is uniquely suitable, or when all
                            alternatives for utilizing direct- hires have been exhausted.

                 USAID/Egypt based its U.S. direct- hire workforce allocation on the key inputs
                 reported by the Overseas Workforce Group. 5 The Overseas Workforce Group
                 created a staffing template to allocate USAID’s overseas U.S. direct-hires.

                 4
                  ADS 400 Series Updates, Part I, 1995 #2
                 5
                  USAID established the Overseas Workforce Group as part of the President's Management
                 Agenda which was tasked to develop guidelines and criteria for overseas staffing.


                                                                                                     6
According to a report of this Group, the most relevant allocation variable for
determining U.S. direct- hire allocation was program size (in dollars). Therefore,
the allocation template gave primary importance to program dollars. However,
the workforce plan placed a ceiling on the total number of U.S. direct-hires at 25
for each mission, and the ceiling did not include staffing requirements for
contracting officers and legal advisors as these backstops supported regional
activities.

USAID/Egypt also had an approved organizational structure that identified the
positions and skills needed to support the defined structure. This data was the
basis for the staffing plan which USAID/Egypt revalidated annually. Each year,
the Mission revalidated the structure along with the positions. The Mission
identified what positions needed to be filled in the next fiscal year and generated a
list of annual vacancies available for U.S. direct- hires to bid on through the
annual assignment cycle.

As of the end of fiscal year 2003, USAID/Egypt had 48 U.S. direct-hire staff.
However, based on the allocation method described above, USAID/Egypt’s total
allocated requirements were 25 U.S. direct-hire (not including 10 additional
direct- hire positions for contracting and legal advisors), which the Mission was
required to meet by fiscal year 2005.

With respect to staffing for U.S. personal services contracts, USAID/Egypt based
its staffing plan on the needs of the Mission and not on the results of the U.S.
direct- hire planning process. For example, USAID/Egypt had requirement s for a
communications and records supervisor. The Mission did not plan to recruit U.S.
direct- hires for this position because, according to USAID/Egypt Management
representatives, USAID no longer hired the skills required of this position.
Therefore, management staffed this position with a contractor regardless of the
allocation results of U.S. direct- hires. According to representatives from
USAID/Egypt’s Executive Office, USAID/Egypt established U.S. personal
services contract positions for the following reasons:

   •   USAID/Egypt historically contracted out critical functions to fill gaps
       where no U.S. direct-hires were available to fill the positions.

   •   The activity did not lend itself to hiring a U.S. direct-hire because the
       activity was of limited duration.          For example, USAID/Egypt’s
       Management Office recently designed a human resource position expected
       to last two years. According to Management officials, the Mission did not
       consider allocating a U.S. direct-hire resource for this position because it
       was temporary.

   •   The position required specialized skills that were not available within the
       American direct-hire workforce. For example, according to the supervisor
       for the Commodity Management Office, USAID had very few direct-hires



                                                                                   7
        with commodity experience, and all were currently assigned to
        USAID/Egypt. According to Mission officials, the Mission will likely fill
        this position with a retired USAID employee with previous commodities
        experience interested in contracting as a personal services contractor.

For fiscal year 2004, USAID/Egypt’s Mission Director authorized 24 U.S.
personal services contractor positions. Of this total, USAID no longer had
employees with the skills for 16 of the positions, according to representatives
from each of the Mission’s offices that identified these requirements.
Furthermore, the Mission contracted out five positions as a result of the U.S.
direct- hire ceilings. Lastly, USAID/Egypt established two of the positions as
local residency hire positions and one as a temporary position.

Although USAID/Egypt followed USAID’s guidance for identifying U.S.
personal contract service positions, it did not solicit for most of these positions
with local hire possibilities prior to advertising off-shore. The following section
discusses this issue.

USAID/Egypt Needed To Consider Hiring Locally

Contrary to USAID policies and procedures, USAID/Egypt did not consider cost
effective local hire opportunities before soliciting for off-shore contractors. This
occurred because USAID/Egypt normally did not seek local employment
opportunities prior to advertising for off-shore candidates. In those instances
where the Mission did not seek and take advantage of local hire opportunities, the
U.S. Government incur red an estimated $198,000 6 of additional costs on each
two-year contract awarded to an off-shore candidate.

USAID guidance addressing the appropriate use and funding of USAID's
non-direct-hire workforce points out that locally- recruited personal services
contracts are usually more cost-effective than contractors recruited
internationally, as these individuals receive limited benefits and allowances.
Therefore, managers who propose to establish positions should review existing
guidance carefully in determining the type of employee required to provide the
services necessary.

USAID can recruit locally or internationally to meet its staffing needs. The term
"locally recruited" refers to recruitment of those individuals who are covered
under the class justification, i.e., Cooperating Country Nationals, 7 Third Country


6
   The estimated $198,000 was based on budgeted amounts for assignment costs, travel
entitlements and in country costs while residing in Egypt. This amount does not include
educational allowances for contractor’s traveling with school aged dependents.
7
  An individual/employee who is a Cooperating Country citizen or a non-Cooperating Country
citizen lawfully admitted for permanent residence in the Cooperating Country.




                                                                                        8
Nationals 8 hired under the local compensation plan, and U.S. citizens who are
living in the cooperating country, referred to as U.S. Resident Hires. 9

When USAID/Egypt targeted the recruitment locally, it publicized the solicitation
throughout the local U.S. community, i.e., USAID/Egypt’s website, the U.S.
Embassy newsletter, U.S. Embassy and Mission bulletin boards, and local
publications. When USAID/Egypt recruited internationally it publicized the
solicitation via the USAID external home page to target U.S. personal services
contractors from outside the cooperating country.

USAID/Egypt’s normal practice was to solicit through USAID’s external home
page and, thus, seek off-shore candidates without first considering the potential
opportunities available through the local recruitment process. Of the 20 personal
services contracted positions, the Mission limited competition to local resident
hires for 2 of the 20 positions.

The reason USAID/Egypt had not targeted more positions for a local resident was
because USAID/Egypt normally did not to seek local employment opportunities
prior to advertising for off- shore candidates.

When the Mission targeted recruitment to off-shore candidates without seeking
local employment opportunities, the increased costs on a two-year contract was
$198,000.

As resources become increasingly scarce, budgetary concerns must drive human
resource decisions, and all options should be carefully considered. Accordingly,
we recommend the following:

        Recommendation No. 1: We recommend that the Director,
        USAID/Egypt, establish Mission guidelines to consider
        locally-recruited personal services contractors as an
        economical option for meeting staffing requirements.

Did USAID/Egypt award U.S. personal services contracts in accordance with
selected USAID policies and procedures?

In most cases, USAID/Egypt awarded U.S. personal services contracts in
accordance with USAID policies and procedures related to Full-and-Open-
Competition10 , establishing fringe benefits, and establishing salaries.



8
  A legal permanent resident, but not a citizen, of the non-US country in which the sponsoring unit
is operating.
9
   Resident Hire means a U.S. citizen who, at the time of hire as a personal service contractor,
resides in the cooperating country.
10
    Full and Open Competition means all responsible sources are permitted to compete for a
contract under specifically prescribed procedures, such as sealed bids and competitive proposals.


                                                                                                 9
As required by USAID Acquisition Regulation, Appendix D, USAID/Egypt
issued solicitations and relied on technical evaluation panels for 19 of the 20 U.S.
personal services contract positions in effect as of October 1, 2002. Furthermore,
USAID/Egypt awarded 15 contracts based on Full-and-Open-Competition and 4
using Other-Than-Full-and-Open-Competition in accordance with USAID
Acquisition Regulation. USAID/Egypt also established market values for all 20
of the contracted positions and negotiated the appropriate salary class (grade) with
19 of the contractors.

However, inconsistencies within contracts and lack of supporting award
documentation indicated that administrative controls needed improve ment. In
addition, procedures for administering contract extensions were not always
supportive of Other-Than-Full-and-Open-Competition requirements. Lastly,
USAID/Egypt needed to better document justifications when a contract award
deviated from the regulations. The following section discusses these issues.

Administrative Controls Needed Improvement

USAID/Egypt needed to better comply with the USAID Acquisition Regulation to
ensure proper execution of U.S. personal services contracts. The 20 U.S. personal
service contractor files contained the following discrepancies:

     •   Eight lacked negotiation memorandums.
     •   Five did not include required class justifications. 11
     •   Eight lacked sufficient documentation supporting consideration of the U.S.
         personal service contracts availability list12 prior to solicitation.
     •   Seven included or excluded benefits inconsistent with policy.

USAID/Egypt staff either was not aware of the requirements or had competing
priorities. As a result, contract files lacked required documentation. Furthermore,
the Mission lacked a standardized process to incorporate provisions into the
contracts. As a result, contracting officers were not consistent across contracts
when incorporating contract provisions. Therefore, USAID/Egypt did not always
execute its contract awards properly.

Negotiation Memoranda - Federal Acquisition Regulation, Part 15.406-3,
Documenting the Negotiation, requires that the contracting officer promptly
prepare a negotiation memorandum outlining the principle elements of the
contract negotiation and include a copy in the contract file at the close of each
negotiation. USAID Acquisition Regulation, Appendix D, Direct USAID
Contracts with a U.S. Citizen or a U.S. Resident Alien for Personal Services

11
   A justification supporting less than full and open competition in accordance with Federal
Acquisition Regulations 6.303
12
   This list includes individuals involved in a settlement agreement stemming from a class action
suit against USAID. The settlement required USAID to consider these individuals for personal
services contracts before publishing or advertising the solicitations for personal services.


                                                                                              10
Abroad, Part 7 Part (k) further supplements the Federal Acquisition Regulation
and identifies a list of clearances, approvals and forms which are to be obtained,
properly completed, and placed in the contract file before the contract is signed by
both parties. Part (k) item no. 11 identifies the negotiation memorandum as one
of the requirements.

USAID/Egypt’s procurement officials did not complete negotiation
memorand ums for 8 the 20 U.S. personal services contract positions.
Consequently, in the event of a protest, USAID/Egypt was at risk because the
Mission could not properly support the basis for the award.

According to USAID/Egypt’s Procurement office, the negotiation memorandums
on U.S. personal services contracts had less priority when the procurement staff
were tasked with other demands, Therefore, the staff did not prepare the
negotiation memorand ums, left the memorand ums incomplete, or did not include
them in the file.

Class Justifications - USAID Acquisition Regulation 706.302-70(b)(1),
Impairment of Foreign Aid Programs, allows USAID to exercise its authority for
using Other-Than-Full-and-Open-Competition when awarding personal services
contracts (except those recruited from the U.S.). When exercising this authority,
the contracting officer must: (1) request offers from as many potential offerors as
is practicable under the circumstances, and (2) prepare a justification supporting
less than full and open competition in accordance with Federal Acquisition
Regulation 6.303.

To comply with the second limitation, USAID’s Office of Procurement released
Contract Information Bulletin 97-16, dated July 10, 1997, issuing policy for
certifying and documenting contract files. The policy contained a class
justification that the contracting officer was to include in the contract file together
with a written statement, signed by the contracting officer, that the contract was
awarded pursuant to USAID Acquisition Regulation.

USAID/Egypt did not include the required class justification in five U.S. personal
services contracts awarded to resident hires. Of the 20 U.S. personal services
contracted positions, the Mission awarded 5 to resident hires which required class
justifications for using Other-Than-Full-and-Open-Competition. As a result, the
Mission did not properly justify limited competition awards. This occurred, in
part, because Mission staff was not aware of the requirements and had misplaced
supporting documents.

Availability List - In 1996, a class of Foreign Service employees subject to a
Reduction- in-Force filed a class action suit, alleging age discrimination in the
conduct of the Reduction- in-Force. The parties entered into a settlement
agreement in 2000 which involved, among other provisions, an agreement by




                                                                                    11
USAID to allow early consideration and selection of interested class members for
personal services contract opportunities without full and open competition.

As a result of the settlement, USAID’s Office of Procurement released Contract
Information Bulletin 00-08, Revision of Competitive Process Personal Services
Contracts with U.S. Citizens, dated October 19, 2000. The guidance said that the
contracting officer or negotiator shall indicate, as part of the negotiation
memorandum, that the requiring office reviewed the personal services contractor
availability list and determined that no candidate me t the needs for the position.
In all cases, the requiring office was responsible to complete a required form
affirming that it reviewed the availability list on the basis of USAID’s needs.

USAID/Egypt’s procurement and management officials did not comply with the
documentation requirements for 8 of the 20 U.S. personal services contractor files
reviewed. USAID/Egypt’s staff did not consider the availability list in six of the
awards because the staff was not aware of the requirements. In two cases,
USAID/Egypt’s procurement negotiators made reference to a review within the
negotiation memoranda, but the contracting staff either misplaced or did not
complete the required document s for the contract file. By not considering the
availability list, the Mission placed itself at risk of further suits for not adhering to
the requirements.

Inconsistent Benefits - Benefits allowed for U.S. personal services contractors
depend on whether a mission awards a local or international contract. USAID
Acquisition Regulation, Appendix D, Part 4(c) Withholding and Fringe Benefits,
and (d) U.S. Resident Hire Personal Services Contractors, prescribes the policy
for establishing withhold ings and fringe benefits for both internationally and
locally recruited services.

USAID/Egypt procurement negotiators included or excluded benefits for 7 of the
20 contracted positions contrary to USAID regulation. For example, the Mission
included insurance costs to cover medical evacuation services in three local
resident hire contracts and physical exam costs in one which were not allowed as
part of a resident hire contract. Also, three off-shore contracts did not include
“Residential Furniture and Supplies” line item in their original budget. This
oversight occurred because the contracting staff did not have clear guidelines
outlining a consistent budget format. As a result, the Mission lacked reliable
budgetary data to assess the full cost of contracted services. Furthermore, U.S.
personal service contractors may have received more benefits than entitled, thus
increasing the cost to either operating or program funds.

        Recommendation No. 2: We recommend that the Director,
        USAID/Egypt, establish controls to complete and review the
        negotiation memorandum for execution of personal services
        contract awards .




                                                                                      12
       Recommendation No. 3: We recommend that the Director,
       USAID/Egypt, institute the use of a check-off list, similar to
       that included in USAID’s Management Services Review
       Guideline s for U.S. personal services contracts, to use as a tool
       to ensure that contract files are complete and accurate.

       Recommendation No 4: We recommend that the Director,
       USAID/Egypt, establish a standardized format to use whe n
       developing budgets for both local and internationally recruited
       personal services contracts.

Procedures for Administering Contract
Extensions Needed Improvement

USAID/Egypt procurement officials extended the length of two U.S. personal
service contracts from 5 to 16 years and from 2 to 6.5 years without re-competing
the positions as required when the statements of work were modified and
expanded.      This occurred because USAID/Egypt procurement officials
misinterpreted their authority to allow for indefinite extensions without further
competition. As a result, USAID/Egypt did not properly administer two of its
U.S. personal services contracts.

Contract Information Bulletin 01-07, dated March 23, 2001, says that extensions
or renewals on U.S. personal services contracts with the same individual for the
same services do not need to be publicized. According to Office of Procurement
officials, this means that a significant modification of the scope of work requires
that the position be re-competed.

USAID/Egypt program offices modified and expanded the major duties required
on two contracted positions that changed the contract from what it was originally
contracted for, and the Mission continued to extend the length of these U.S
personal services contracts from 5 to 16 and from 2 to 6.5 years.

USAID/Egypt did not address the lack of competition when it modified the
statements of work and extended the two contracts. Procurement officials
awarded and extended one of the two contracts without any support of
competition or justification for using Other-Than-Full-and-Open-Competition.
Though procurement officials initially awarded the second contract under Full-
and-Open-Competition, they modified and renewed the contract beyond five years
in length without any support for Other-Than-Full-and-Open-Competition.

       Recommendation No. 5: We recommend that the Director,
       USAID/Egypt, require offices to comply with justification
       requirements prior to extending U.S. off-shore personal
       services contracts beyond five years from the basic effective
       contract date.



                                                                                13
Support for Justifications Needed Improvement

Contrary to the USAID Acquisition Regulation, USAID/Egypt granted waivers on
two U.S. personal services contracts for salary and benefit allowances without
proper justification. As a result, the programs incurred an additional $136,500 in
costs for the first two years for the two contracts. The requesting offices sought
the waivers because of the contractors’ refusal to accept the contract terms
offered.

Salary Waiver Not Properly Justified - USAID Acquisition Regulation,
Appendix D, Part 4 (e) sets forth the policy for establishing salaries for personal
services contractors. The policy says that salaries for personal services
contractors shall be established based on the market value in the United States of
the position being recruited. Contract Information Bulletin 96-8, dated February
23, 1996, established the guidelines for determining a market value for personal
services contractors. When establishing the salary range for a U.S. personal
service contractor, the General Schedule 13 scale grade represents the market value
of the work to be performed. The General Schedule salary range represents
agreement within the U.S. Government on what USAID should pay for the
contracted effort.

USAID/Egypt negotiated a U.S. personal services contract salary based on the
applicant’s current earnings in lieu of the established market value of the job.
Though the Mission Director approved this decision, the Mission did not properly
consider a number of issues before approving the waiver.

During the solicitation phase, one candidate identified on the personal services
contractor availability list (refer to footnote 12, page 10), who met the
qualifications, inquired if there would be any flexibility on the salary range based
on the applicant’s salary history. Procurement officials informed the candidate
there would be no flexibility to exceed the ceiling established for the position. As
a result, the candidate withdrew consideration for the position because of the
salary ceiling. Furthermore, the selection committee identified other suitable
candidates qualified for the position. However, the contracting officer did not
extend offers to the other qualified candidates.

The requesting office justified the request for the salary waiver based on the
candidate’s unwillingness to accept a lower salary. As a result, the program
office incurred $35,200 in increased costs over the initial two-year contract
period. 14



13
   The General Schedule is the basic classification and compensation system for white collar
occupations in the Federal Government as established by chapter 51 of title 5, United States Code.
14
   We determined this amount by comparing the salary at the highest step in the grade established
for the market value of the position and the negotiated salary of the contractor.


                                                                                               14
Off-Shore Benefits Waiver Not Properly Justified - USAID Acquisition
Regulation, Appendix D, Part 4 (d) says that U.S. resident-hire personal services
contractors are not eligible for any fringe benefits (except contributions for social
security, health insurance, and life insurance), including differentials and
allowances. Missions can deviate from regulation if the individuals can
demonstrate to the satisfaction of the contracting officer that they have received
similar benefits and allowances from their immediately previous employer in the
cooperating country, or the Mission Director may determine that payment of such
benefits would be consistent with the mission's policy and practice and would be
in the best interests of the U.S. Government.

In 1995, the Mission Director approved such a deviation for a U.S. resident-hire
personal services contractor awarded a contract in July 1988. USAID/Egypt
extended and renewed the contract as a long-term resident- hire contract through
July 1995. In 1995, the contractor informed USAID that he would not accept an
extension of the resident-hire personal service contract.          As a result,
USAID/Egypt awarded a new contract to the same contractor that changed the
status of the contract from a resident to an off- shore hire. USAID/Egypt’s
technical office requested the Mission Director to approve this deviation because
the program office hired all other program- funded contractors from the U.S.
Furthermore, the contract was in effect and signed prior to the program office
requesting approval to deviate from USAID regulation.

The fact that the program office hired all other contractors from the U.S. did not
change the residency status of the contractor which at the time of initial award
met the definition of a resident hire (refer to footnote 9 on page 9). Furthermore,
the contractor could not demonstrate to the satisfaction of the Contracting Officer
that he had received similar benefits and allowances from previous employers in
the cooperating country, which would have supported a waiver. And lastly, the
Mission did not have an established policy or practices in place to justify the off-
shore benefits. Therefore, USAID/Egypt did not execute the establishment of a
new contract with the same individual in accordance with USAID Acquisition
Regulation.

Changing the contract to an off-shore hire contract allowed the contractor the
benefits allowed under the general provisions for off-shore U.S. personal services
contracts. By reclassifying the contract from a local resident hire to an off-shore,
the contract costs increased by $101,300 for the initial 24 months of the new
contract.

       Recommendation No. 6: We recommend that the Director,
       USAID/Egypt, determine how the two contracts will be
       managed once the current extensions are completed to ensure
       that compensation and benefits are paid in accordance with
       USAID Acquisition Regulation.




                                                                                  15
Management   In its response to our draft report, USAID/Egypt concurred with the
Comments     recommendations and described actions taken to address them. We believe that
             the actions taken should significantly strengthen the Mission’s management of
and Our
             U.S. personal services contracts.
Evaluation
             To address the first five report recommendations, the Mission Director issued a
             memorandum to all Mission procurement staff involved in the contracting process
             for U.S. personal services contractors. The memorandum identified mandatory
             guidelines to ensure compliance with the award and administration of U.S.
             personal services contracts. Copies of the memorandum were provided to the
             Offices of procurement, management, and financial management.

             In response to the sixth recommendation, the Mission acknowledged that a
             mistake was made in both of the contracts referenced in the audit report. The
             Mission Director described the corrective actions the Mission had taken to
             remedy both contracts. The Mission Director attached supporting documentation
             demonstrating the actions taken to date.

             Based on the actions the Mission took to address each recommendation, we
             concluded that management decision had been made and final action taken on all
             recommendations.




                                                                                         16
                                                                                      Appendix I

Scope and     Scope
Methodology
              Regional Inspector General/Cairo audited USAID/Egypt’s management of U.S.
              personal services contractors in accordance with generally accepted government
              auditing standards from November 19, 2003, to January 8, 2004. We conducted
              the audit at USAID/Egypt.

              The audit focused on 1) whether USAID/Egypt determined its requirements for
              U.S. personal services contractors in accordance with USAID policies and
              procedures, and 2) whether USAID/Egypt awarded U.S. personal services
              contracts in accordance with selected USAID policies and procedures.

              This audit included an examination of management controls, including those
              associated with determining the Missions requirements for U.S. personal services
              contractors, awarding those contracts as they relate to full and open competition,
              establishing fringe benefits and establishing salaries for U.S. personal services
              contracts.

              Our audit scope included all active U.S. personal services contracts as of
              October 1, 2002, through November 19, 2003.

              Methodology

              To answer the first aud it objective, we interviewed the Mission Director, Deputy
              Director, Contracting Officer, Controller, and the Program Officers. We also
              discussed with each of the Mission’s nine offices the basis for the U.S. personal
              services contract requirements as of November 19, 2003.

              Further, we reviewed USAID/Egypt’s Annual Report for fiscal year 2003 and
              workforce staffing planning documents for fiscal years 2003 through 2007.

              In addition, we reviewed how USAID/Egypt determined its staffing needs, and
              the considerations made in determining the type of employee category to fill the
              Mission’s positions. Further, we evaluated whether the Mission’s basis for any
              such determination was reasonable.

              To answer the second audit objective, we reviewed pertinent documentation, such
              as contract files, solicitation files, and payroll information for all U.S. personal
              services contractors on contract from October 2002 through November 2003.

              We also evaluated each of the U.S. personal services contracts to determine if:

                 •    The Mission awarded U.S. personal services contracts under Full-and-
                      Open-Competition. If not, then we determined if the Mission complied
                      with the requirements for Other-Than-Full-and-Open-Competition.


                                                                                                17
   •   The Mission included in the U.S. personal services contracts fringe
       benefits in accordance with USAID policies and procedures.
   •   The Mission established the U.S. personal services contract salaries and
       salary increases in accordance with USAID policies and procedures.

The audit was not designed to assess the overall economy and efficiency of the
personal services contracting process.




                                                                            18
                                                                            Appendix II


Management
Comments


                   UNITED STATES AGENCY for INTERNATIONAL DEVELOPMENT




CAIRO, EGYPT


       MEMORANDUM

       To      :      Darryl T. Burris, RIG/Cairo

       From :         Mary C. Ott, D/DIR /s/

       Subject:  Mission Response to Draft Report on Audit of USAID/Egypt’s
       Management of U.S. Personal Services Contractors (Draft Report Dated February
       17, 2004)

       The Mission would like to express its appreciation for the professional and
       collegial approach to this audit by the RIG/Cairo and for the constructive audit
       recommendations included in the report.

       Following is the Mission’s response to the subject draft report.

       Recommendation No. 1:
       We recommend that the Director, USAID/Egypt, establish Mission guidelines
       to consider locally-recruited U.S. and Foreign National personal services
       contractors as an economical option for meeting staffing requirements.

       Recommendation No. 2:
       We recommend that the Director, USAID/Egypt, establish controls to
       complete and review the negotiation memorandum for execution of personal
       services contract awards.



                                                                                    19
Recommendation No. 3:
We recommend that the Director, USAID/Egypt, institute the use of a
check-off list, similar to that included in USAID’s Management Services
Review Guidelines 7 for U.S. personal services contracts, to use as a tool
to ensure that contract files are complete and accurate.

Recommendation No 4:
We recommend that the Director, USAID/Egypt, establish a
standardized format to use when developing budgets for both local and
internationally recruited personal services contracts.

Recommendation No. 5:
We recommend that the Director, USAID/Egypt, require offices to
comply with justification requirements prior to extending U.S. off-shore
personal services contracts beyond five years from the basic effective
contract date.

Mission Response to Recommendations 1 through 5:

To address the report recommendations, the Mission Director has issued a
memorandum to all Mission procurement staff involved in the USPSC
contracting process, (Attachment A). In summary, the Mission Director
required that:

o      an initial solicitation on the local level be done prior to any
solicitation on the international level;

o   all negotiation memoranda be completed prior to signature on any
USPSC contract;

o     a USPSC checklist be completed and signed prior to signature on any
USPSC contract. A copy of the Mission’s preferred version of a checklist
was attached to the memorandum, (Attachment B) ; and

o     the Executive Office issue, on an annual basis, a standardized format
for developing budget estimates for both locally and internationally recruited
personal services contracts. A copy of this format was distributed Mission-
wide early in FY 2003; this memo makes its use mandatory, (Attachment C).



                                                                           20
      o      Further, the memorandum reminded procurement staff and their supporting
      staff of the AIDAR requirement that all USPSC contracts be re-competed after a
      period of five cumulative years.

      Recommendation No. 6:
      We recommend that the Director, USAID/Egypt, make a determination on
      how these two contracts will be managed once the current extensions are
      completed to ensure that compensation and benefits are paid in accordance
      with USAID acquisition regulations.

      Mission Response to Recommendation No. 6:

      The Mission acknowledges that a mistake was made in both of the contracts
      referenced in the audit report. The Executive Office has received a Modified
      Acquisition and Assistance Request Document (MAARD) for the re-competition
      of one of these contracts and is in the process of soliciting applications in the local
      market, (Attachment D). The Mission confirms that no action to recruit
      internationally will be taken unless no suitable local candidate can be found.

      Regarding the second contract referred to in the audit report, the Executive Office
      plans to terminate this contract upon its completion. At this time, there are no
      plans for any follow-on contracts in this area, however, should a requirement be
      identified beyond end of FY 2003, the Mission will ensure compliance with the
      guidance addressed in the Director’s memo recently issued.

      In view of the above, the Mission strongly believes that the comprehensive
      corrective actions taken qualify for requesting closure of the audit report
      recommendations one through six upon the final report issuance.

      Should you have any questions relevant to the Mission’s response, please contact
      me.

Distribution:
J. Nandy, AD/HDD
A. Vance, AD/EG
R. Joseph, AD/EI
R. Harber, OD/PROG
J. Groarke, OD/LEG
H. Jamshed, Controller



                                                                                          21
